In the Supreme Court of the United States
Supreme Court, U.S.
FILED

Debera Pinette, Petitioner
MAR 1Y I 2021
v.
OFFICE OF THE CLERK
State of Maine, Department of Health and Human Services

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
PETITION FOR REHEARING

Meghan Kathleen Szylvian
COUNSEL OF RECORD
Maine Office of the Attorney General
6 State House Station
Augusta, Me 04333

c

March 09, 2021

IN the Supreme Court of the United States
No. 20-771
Debera Pinette, Petitioner
v.
State of Maine, Department of Health and Human Services
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1, Debera Pinette, hereby respectfully
petitions for rehearing of the Court's decision issued on February 22, 2021. Debera
Pinette v. State of Maine Department of Health and Human Services, No. 20-771,
Pursuant to Supreme Court Rule 44.1 this petition for rehearing is filed within 25
days of this Court's decision in this case.

REASONS FOR GRANTING THE PETITION

Rehearing should be in favor as there is fundamental errors of law and faulty
reasoning in the opinion and I have reason to believe that the court will correct its
error in favor of, review if it is pointed out. Because there is confusion and
disagreement this petition seeks to provide the framework necessary for a
rehearing.
In this case, Procedural and Substantial Due Process was not applied.
Under the Fourteenth Amendment, the right to Procedural Due Process is
implicated where a constitutionally protected liberty or property interest is
concerned. The crux of procedural due process is the right to Notice and an
opportunity to be heard at a meaningful time and in a meaningful manner.
Pursuant to Fuentes v. Shevin,407 U.S. 67, 80, 92, s Ct. 1983, 1994 (1972).
Procedural Due Process, concerns the procedures that the government must follow
before it deprives an individual of life, liberty or property.
As I mentioned in my Writ of Certiorari, Judge Lawrence wrongly Misinterpreted
dates of duration of visits from the Gal's report, this act of misconstruing not only
lead to complete misconstruction of Gals words but also left the Judges ruling
factually inaccurate and included legal errors.
Therefor the Judge did not make all his decisions based on the law. Because of his
mistake in law it negatively impacted my position in this case. This Judgement
error of misinterpretation was noticed only after his Judgement order was written

on February 02, 2020. Immediately, appropriate motions and appeals were filed in a
timely manner to inform the courts of false information and provided them with
factual findings such as exhibits as to be true evidence. The false information that
the Judge reflects to in his order persuaded his decision opposing Debera for
placement with her Grandchildren. Debera has proved burden of proof providing
the district court with all documents that reflects true evidence contrary to his
belief.
Judge Lawrence also states
in Judgement order he believes foster parent will continue the boys relationship
with relatives. This is not the law and he should hold confidence in knowing the
truth and the law. Pursuant to Maine Statute, Title 22, Chapter 1071, sub chapter
6, Right to deny the Grandparent but only after the child's adoption. I have been
denied visitation since February 06, 2020 as well as other relatives and other
siblings to the boys.
In Rabe v. Washington, the U. S Supreme Court rules that due process clause of the
14th Amendment, which guarantees the right to a fair hearing that follows the rules
is violated when a State law fails to explain what conduct is prohibited.
Please protect my rights from interference by the State of Maine.
The Fourteenth Amendment prohibits the State from depriving any person of life,
liberty or property without due process of the law.
The Judgement order denied me placement of my Grandchildren using title 19-A
Chapter 55, Section 3D against doing so. This title uses factors of duration of time

against family reunification. There were factors that were not in our control nor any
fault of mine. Such durations of separation includes Government shutdown 20192020, such title should not be enforced during any state of Emergency duration.
All of these concerns interfere with my liberty and freedom. Liberty meaning
freedom from arbitrary and unreasonable restraint upon an individual. This
arbitrary rule is violating the fundamental rights of the people especially in
unprecedented times and has been made impossible and held against unreasonable
act of will.
Constitutional rights guarantees a fair process in ALL hearings, guarantees equal
treatment under the law.
I have not been treated equally nor fairly according to the Rule of Law. Which ALL
persons, institutions, and entities are accountable to laws that are publicly
promulgated.
According to Constitution of the State of Maine, Article 1, Declaration of Rights.
ALL people are born equally free and independent and have certain Natural,
inherent and unalienable rights, among which are those of enjoying and defending
life and liberty, acquiring and possessing and protecting property and of pursuing
and obtaining safety and happiness.
Seventh Amendment to the United States Constitution and Constitution of the
State of Maine Section 20 Trial by Jury was denied. This amendment according to
U.S Constitution is part of the bill of rights. This amendment codifies the right to a
jury trial in certain civil cases and inhibits courts from overturning a jury's findings,

of fact. Constitution of the State of Maine Section 20 Trial by Jury ensures ALL civil
suits and ALL controversies concerning property, the parties shall have a right to
trial by jury, except in cases where it has heretofore been otherwise practiced; the
party claiming the rights may be heard by him or herself, and with counsel or
either, at the election of the party.
Please apply Rule 16 and allow Judgement to be reviewed.
This Petition briefly and distinctly states its grounds and accompanied with
certificate stating that the grounds are limited to intervening circumstances of
substantial or controlling effect or to other substantial grounds not previously
presented.
CONCLUSION
Petitioner requests that rehearing be granted and is appropriate for this Court
to review Maine's decision to insulate an arguably unconstitutional decision about
whether Debera Pinette should be executed from any constitutional scrutiny,
because it results in the inconsistent application of the law, Board of Regents of St.
Colleges v.Roth, 408 U.S 564, 570, 925, Ct 2701, 2705 (1972). Regarding Fourteenth
Amendment context.
And I do further certify under penalty of perjury that the foregoing is true and
correct, and this petition is presented in good faith and not for delay and that I have
closely examined the record and reproduction of the originals and that the same has
been proofread. signed Debera Pinette, Petitioner, pro se CERTIFICATION OF
COUNSEL FOR THE PETITIONER.

Executed on 03/09/2021
Debera Pinette
32 Cove Road Winterport, Maine 04496

